Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) ss

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 2/4/2020 deponent caused to be served 3 copy(s) of the within

Petition for Writ of Certiorari
upon the attorneys at the address below, and by the following method:

By Overnieht Delivery
David L. Goldberg, Esq.
Katten Muchin Rosenman LLP
Attorneys for Respondent UBS AG
575 Madison Avenue, 11th Floor
New York, NY 10022
212-940-6787
david.goldberg@kattenlaw.com

Sworn to me this
Tuesday, February 4, 2020
Antoine Victoria Robertson Coston
Notary Public, State ofNew York
No.OlR06286515
Qualified in Nassau County
Conunission Expires on 7/29/2021

Case Name: Kathleen K. Johnson v. UBS AG
Docket/Case No:
Index:

